21-5145
No.

IN THE

supre

MAY 14 2021

SUPREME COURT OF THE UNITED STATES

Office o

Richard Demon Donaldson

— PETITIONER

(Your Name)
vs.

BOBBY LUMPKIN, Director

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO
AND APPLICATION FOR A CERTIFICATE OF APPEALAIBLITY
UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Richard Demon Donaldson

(Your Name)
John M. Wynne State Farm
iJ810 F.M. 2821, West Hwy. 75 North
(Address)
Hunstsville, Texas.

77349-0005

(City, State, Zip Code)
(936) 295-9126
(Phone Number)

Rlcen/g)
JUL 13 2021

QUESTION(S) PRESENTED

QUESTION No. 1
WHETHER THE COURT OF APPEALS ERRED AND ABUSED.ITS DISCRETION IN
REFUSING AND/OR DECLINING TO ISSUE A CERTIFICATE OF APPEALABILITY
UPON THE CONTENTION THAT THE PETITIONER FAILED TO MAKE THE
REQUIRED SHOWING WHEN THE PETITIONER RAISED A FACIAL VALID CLAIM
AND SHOWING OF THE DENIAL OF A CONSTITUTIONA RIGHT IN ARGUING
THAT HE WAS DEPRIVED OF HIS RIGHTS TO REASONABLE ASSISTANCE OF
COUNSEL UNDER THE 6TH AMENDMENT TO THE UNITED STATES CONSTITUTION
AND REASONABLE JURIST WOULD FIND THE DISTRICT COURT'S ASSESSMENT
OF THE CONSTITUTIONAL CLAIM DEBATABLE OR WRONG WHEN THE DISTRICT
COURT:
(A) accorded difference and the presumption of correctness
to the Findings of Fact and Conclusions of Law of the
State habeas court that was explicitly rejected by the
State's highest courtijj
(B) held that the claim was adjudicated on the merits when
under State law the claim remained pending in the State
habeas court absent the.issuance of mandate;
(C) assessed the claim under the provisions of Title 28 U.S.C.j
Section 2254(d)(1) and (2) when the claim had not been
adjudicated upon the merits in the State habeas court.

QUESTION No. 2
WHETHER THE PETITIONER HAS A STATUTORY RIGHT TO SEEK THE
ISSUANCE OF A CERTIFICATE OF APPEALABILITY FROM A JUSTICE
OF THE UNITED STATES SUPREME COURT AND THE CLERK OF THE
UNITED STATES SUPREME COURT SUBVERTED AND IMPEDED THIS RIGHT
BY MANDATING THE FILING OF THE INSTANT PETITION FOR A WRIT
OF CERTIORARI?

i

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
[vr All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows: Jennifer Wissinger, Assistant Attorney General,
State of Texas, P.0. Box 12548, Austin, Texas. 78711-2548, Attorney
for the Respondent.

RELATED CASES

ii

TABLE OF CONTENTS

OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4-7

REASONS FOR GRANTING THE WRIT

8-14

CONCLUSION

14

INDEX TO APPENDICES

APPENDIX A : Unpublished written Memorandum Opinion and Order ’
delivered on November 06, 2019 by the United States District Court
for the Northern District of Texas, Fort Worth Division.
APPENDIX B: Uiipublished written Order delivered on December 09,
2020 by the United States Court of Appeals for the Fifth Circuit.
APPENDIX C: Unpublished written Per Curiam Order delivered on
January 07, 2021 by the United States Court of Appeals for the
Fifth Circuit.
APPENDIX D
APPENDIX E
APPENDIX F

iii

TABLE OF AUTHORITIES CITED
PAGE NUMBER
CASES:
Carter v, State, 510 S.W.2d 323 (Tex.Cr.App. 1974)
Carey v. Saffold, 122 S.Ct. 2134 (200$)
Ex Parte Torres, 943 S.W.2d 469 (Tex.Cr.App. 1997)
Jackson v. Johnson, 150 F.3d 520 (5th Cir. 1998)
Micheauz v. Collins, 944 F,2d 231 (5th Cir. 1991)
Miller-El v. Cockrell, 123 S.Ct,. 1029 (2003)
Moore v. Johnson, 10ffilF.3d 1069 (5th Cir. 1996)
Nyland v. Moore, 216 F.3d 1264 (1.1th Cir.. 2000)
Payne v. Kemma, 441 F..3d 570 (8th Cir. 2006)
Singleton v. Johnson, 173 F..3d 381 (5th Cir. 1999)
Slack v. McDaniel, 120 S.Ct. 1595 (2000)
Strickland v. Washington, 466 U,. S668 (1984)

.
.
.

13
13
11, 13
9, 10, 12
10, 12
8
9. 12
13
13
10, 12
8
12

STATUTES AND RULES:
Supreme Court Rules:
Rule 22

8

Title 28 U.S.C.?
Section
Section
Section
Section
Section

2253(c)(1)(A)
2253(c)(2)
2254(d)(1)
2254(d)(2)
2254(e)(1)

iv.

.
.
,

8 14
8’
9, 11, 12
9, 11, 12
1.1

I N TH E

—

SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below,
or a Certificattes of Appealability issue to review the judgment below.
OPINIONS BELOW
[vf For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

B

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

A

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION
IA For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was December 09. 2020
[ ] No petition for rehearing was timely filed in my case.
[M^Atimely petition for rehearing was denied by the United States Court of
Appeals on the following date: January 07, 2020
j and a copy of the
order denying rehearing appears at Appendix C
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1). This
Court's jurisdiction is also invoked under Title 28 U.S.C., Section
2253(c)(1)(A).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
--------------------------------- , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Title 28 U.S.S., Section 2253(c)(1)(A)
Unless a circuit justice or judge issues a certificate of appealability,
an appeal may not be taken to the court of appeals from; the
final order in a habeas corpus proceeding in which the detention
complained of arises out of a process issued by a State court.
Title 28 U.S.C., Section 2254(d)(1) And (2)
(d) An application for a writ of habeas corpus on behalf of a personb
in custody pursuant to the judgment of a State court shall not
be granted with respect to any claim that was adjudicated on
the merits in State court proceedings unless the adjudication
of the claim -(1) resulted in a decision that was contrary to, or invoiced
an unreasonable application of, clearly established federal
law, as determined by the Supreme Court of the United States;
or
(2) resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented
at the State court proceeding.
Title 28 U.S.C. Section 2254(e)(1)
In a proceeding initiated by an application for a writ of habeas
corpus by a person in custody pursuant to the judgment of a State
court, a determination of the factual issue made by a State court
shall be presumed to be correct. The applicant shall have the
burden of rebutting the presumption of correctness by clear and
convincing evidence.

3

“*..

STATEMENT OF THE CASE
Petitioner was convicted for the alleged offense of Continuous
Sexual Assault. (Appendix-A; p. 108).
Petitioner initiated a federal habeas proceeding pursuant
to Title 28 U.S.C., Section 2254 et seq. before the United States
Disrict Court for the NQrthern District of Texas, Fort Worth
Division, on October 03, 2018, in No. #4:18-CV9816-A, Styled:
Richard Demon Donaldson v. Lorie Davis, Director, Texas Department
of Criminal Justice-Correctional Institutions Division.
In a single ground for federal habeas relief, the Petitioner
argued that he was denied his constitutional rights to effective
assistance of counsel under the 6TH Amendment to the United States
Constitution, because during the delbbertation of the jury during
the Guilt/Innocence Phase of the Petitioner's trial, the jury
presented a note to the trial court requesting an answer to a
hypothetical fact question of whether the mother of the alleged
victim had the ability to stop the case §efore trial for any
reason during the four (4) years. Absent any objection from trial
counsel, the trial court answered the jury's question

that in

regards to the question of whether the mother of the alleged
victim had the ability to stop the case before trial was not
in evidence before them. The Petitioner argued that in the absent
of an objection by trial counsel, the trial court allowed and
permitted to opinionate a factual response to the jury contrary
to the law.
The State habeas court entered a Findings of Fact and Conclusions
of Law, finding that trial counsel agreed with the trial court

[Q

3

not to answer the substance of the Jury Note regarding whether
the mother of the alleged victim could have prevented the case
from going to trial because that was not evidence before them,
and that trial counsel did not object to the trial court's answer
to the Jury Note because he concluded it was proper, and his
decision not to bbjectswas the result of reasonable trial strategy.
The Texas Court of Criminal Appeals in it's decision to deny
the application without written order was not premised upon the
Findings of Fact and Conclusions of Law of the State habeas court.
(Appendix-A; p. 109)_.
On November 06, 2019, the district court entered a Memorandum
Opinion and Order denying the Petitioner's federal habeas petition
and a certificate of appealability. (Appendix-A; pp. 108-115).
The district court in its resolution of the Petitioner's claim
for federal habeas relief gave difference to ^factual issue
that was not adopted by the Texas Court of Criminal Appeals,
thus, there were no Findings of Fact and Conclusions of law accepted
by the Texas Court of Criminal Appeals upon which the presumption
of correctness applied. The district court furthered, that since
the Texas Court of Criminal Appeals denied the Petitioner's State
habeas application without written order, such was an adjudication
of the Petitioner's claim for habeas relief on the merits.
(Appendix-A; p. 110).
r-

”

L'—-

—^

—

,

On December 09, ,n2020, the United States Court of Appeals for
Fhe Fiffh Circuit denied the Petitioner's Application for A
Certificate of Appealability. (Appendix-B). And on(January""07,J
bZOZljdenied the Petitioner's Petition for Panel Rehearing. (Appendix-C).

5O

to not answer the substance of the question presented in the
Jury Note regarding whether the alleged victim could have nr even ted.
the case from going to trial because that was not in evidence
before them, and that trial counsel did not object to the trial
court's answer to the Jury Note because he concluded it was proper,
and his decision not to bbiect was the result of reasonable trial
strategyyu
The Texas Court of Criminal Appeals explicitly rejected the
Findings of Fact and Conclusions of Law made by the State habeas
court and denied the Petitioner's State habeas application without
written order rather than on the Findings of Fact and Conclusions
of Law of the State habeas court. (Appendix-A: p, 109).
On November 06, 2019, the district court entered an unmiblished
Memorandum Opinion and Order denying the Petitioner's federal
habeas petition and denied a Certificate of Appealability.
(Appendix-A: pp. 108-115).The district court in the resolution of the Petitioner's claim
that he was deprived of his right to effective assistance of
counsel gave difference to and applied the presumption of correctness
to the Findings of Fact and Conclusions of Law that was explicitly
rejected by the Texas Court of Criminal Appeals. The district
court furthered, that since the Texas Court of Criminal Appeals
denied the Petitioner's State habeas application without written
order

such was an adjudication of the claim on the merits.

(Appendix-A; p. 110),
On December 09, 2020, the United States Court of Appeals for
the Fifth Circuit denied the Petitioner's Application for A

1.

t

-^

Certificate of Appealability. (Anpendix-B). And on Uanaaf$^_j07
2021

7

that court denied the Petitioner's Petition for Panel Rehearing,

(Appendix-C) ,

□

•

—

REASONS .FOR GRANTING THE APPLICATION

Under Title 28 U.S.C., Section 2253(c)(1)(A) it is provided
that "Unless a circuit justice or judge issues a certificate
of appealability (COA), an appeal may not be taken to the court
of appeals from the final order in a habeas corpus proceeding
in which the detention complained of arises out of a process
issued by a State Court. Thus, under the clear text of the statute
a "Circuit Justice" of the United States Supreme Court has the
authority and jurisdiction to issue a COA. Therefore, the foregoing
application is properly before the Court. See., Ruli 22 of the
Supreme Court Rules.
To be entitled to a COA, a COA may issue under Section 2253(c) (1) (/yj)
only if the applicant has made a substantial showing of the denial
of a constitutional right. See., Title 28 U.S.C., Section 2253(c)(2).
Where a district court has rejected the constitutional claimss
on the merits, the showing required to satisfy Section 2253(c)(2)
is straight forward. The habeas petitioner must demonstrate that
reasonable jurist would find the district court's assessment
of the constitutional claim debatable or wrong. See., Slack v.
McDaniel, 120 S.Ct. 1595 (2000). The habeas petitioner need not
convience a judge, or, for that matter, three (3) judges, that
he or she will prevail, but must demonstrate that reasonable
jurists would find the district court's assessment of the
constitutional claims debatable or wrong. See., Miller-El v.
Cockrell, 123 S.Ct. 1029 (2003). This inquiry does not require
or entail full consideration of the factual or legal basis supporting
the claim. Id.

~

lU

~

Clearly, a district court's use of the wrong legal standard
of review in the assessment of a habeas petitioner's constitutional
claim is wrong and debatable. Further, the question of whether
a district court is required to review all of a habeas petitioner's
constitutional claims that are reviewable from the record when
those claims have been presented to the State habeas court for
consideration.is a matter of importance and interest in human
liberty that such deserves further encouragement to proceed further.
In view of Title 28 U.S.C., Section 2254(d)(1) and (2) it
is provided, that:

13

□

(6) An application for a writ of habeas corpus on
behalf of a person in custody pursuant to the judgment
of a State court shall not beggrabted with respect
to any claim that was agudicated on the merits in
State court proceedings unless the adjudication of
the claim -(1) resulted in a decision that was contrary to, or involved
an unreasonable application of, clearly established federal
law, as determined by the Supreme Court of the United States;
or
(2) resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented
at the State court proceeding.
It is the law of the Fifth Circuit, that the district court

must determine whether the habeas petitioner's claims were
adjudicated on the merits in the State court proceedings and
is thus subject to the rigorous standard of review under Section
2254(d)(1) and (2). See., Jackson v. Johnson, 150 F.3d 520 (5th
Cir. 1998).
In Moore v. Johnson, 101 F.3d 1069 (5th Cir. 1996); the State
habeas court after conducting an evidentiary hearing on the issue,
entered detailed findings of factsand conclusions of law holding
that Moore had failed to show ineffective assistance of counsel.
9,

3

The Texas Court of Criminal Appeals accepted the findings
of the State habeas court and denied Moore;ls application for
writ of habeas corpus. On these bases the EifthdCircuit held
that there was no question Moore's ineffective assistance of
counsel claims received a full and fair adjudication on the merits
by the State habeas court. Cf., Singleton v. Jofihson, 178 F.3d
381 (5th Cir. 1999); the State habeas court determined that the
habeas relief requested by the applicant in that case should
be granted and recommended to the Texas Court of Criminal Appeals
that habeas relief be granted. The Texas Court of Criminal Appeals
disagreed with the redommendation, because it denied the application
without written order. Further, in Micheauz v. Collins, 944 F.2d
231 (5th Cir. 1991); the court of appeals held that the State
habeas court's proposed findings of fact and conclusions of law
did not survive the Texas Court of Criminal Appeals denial of
habeas relief without written order because they were not adopted
by that court in it's decision to deny habeas relief.
As in this case, there is no Findings of Fact and Conclusions
of Law that have been accepted and/or adopted by the Texas Court
of Criminal Appeals in Order to deny habeas relief upon the Applicant's
claim of ineffective assistance of counsel. There cannot even
be the semblance of a full and fair hearing unless the State
habeas court actually reached and decided the issue of fact tendered
by the habeas petitioner. Thus

there are no findings made by

the State habeas court upon which the presumption of correctness
applies, nor were the claims adjudicated on the merits by the
State habeas court.

Cf., Jackson, Supra., the Texas Court of
10

c-

^.

Criminal Appeals denied relief without written order upon the
findings of fact and conclusions of law of the State habeas court
constituted an adjudication on the merits of the claim.
The district court in it's Memorandum Opinion amjbira^ed Section
2254(d)(1) and (2) as it's standard of review. See., (Appendix
A; pp. 109-110). The district court also embraced Title 28 U.S.C.,
j Section 2254(c)(l)j upon the Findings of Fact and Conclusions of
Law of the State habeas court that were neither accepted and/or
adopted by the Texas Court of Criminal Appeals. See., (Appendix
A; pp.Q| and 113). However, the district court concluded that
since the Texas Court of Criminal Appeals denied the State habeas
application without written order constituted an adjudication
on the merits, citing Ex Parte Torres, 943 S.W.2d 469 (Tex.Cr.App.
1997), and thus, disavowing the established precedents of the
Fifth Circuit to be used in the resolution of whether a claim
has been adjudicated upon the merits.
Giventthe assessment of the Petitioner's ineffective assistance
of counsel claim by the district court reasonable jurists could
debate as to whether the district court used the correct standard
of review, and that such was wrong when it reviewed the claim under
the rigorous standard of review of Section 2254(d)(1) and (2).
Further, given the assessment made by the district court,
there were no findings of fact and conclusions of law accepted
and/or adopted by the Texas Court of Criminal Appeals upon whicha
the presumption of correctness applied, as jurist of reasons
could find this assessment by the district court debatable and
wrong.

ED
s>

In view of the prior and previous disposition of this matter ’
under Jackson, Moore, Singleton, and Micheauz, the Petitioner
meets the requirements for the issuance of a COA.
The district court in assessing the Petitioner ineffective
assistance of counsel claim based on the findings of the State
habeas court concluded that the Petitioner failed to prove either
prong of the standard set forth in Stgickland v. Washington,
466 U.S. 668 (1984) to establish ineffective assistance of counsel.
Notwithstanding the erroneous review embraced by the district
court upon the Petitioner's claim, the district court held that
the information requested by the jury was not in evidence, and,
contrary to the Petitioner's assertion, the trial court's response
was non-substantive and neutral, however, the trial court's answer
to the jury's question was however a direct comment as to the
evidence, in that there was no evidence on this matter, a matter
that was within the province of the jury to decide whether or
not there was evidence to support a finding that the mother of
the alleged victim had the ability to stop the case before trial
for any reason during the four (4-0 years. What the purpose was
by the jury for the question is a reason that could have only
been answered and reached by the jury, thus, it would have been
proper for the trial court to have instructed the jury that the
matter was for them to decide upon the evidence, and on that
matter, trial counsel should have objected.
Under federal law, Section 2254(d)(1) and (2) only applies
to those claims adjudicated on the merits in the State court

j27~\

r

proceeding.

"

..

• •—..........

The district court relied on the holdings under Ex Parte Torres
for the proposition that the denial of the application without
written order by the Texas Court of Criminal Appeals constituted
an adjudication on the merits. However, under Texas law absent
the issuance of mandate by that Court there is no final resolution
and/or disposition of the issue or case before it. Cf., Carter
v. State

510 S.W.2d 323 (Tex.Cr.App. 1974); prior to the issuance

of mandate a judgment is not final. Thus, in the absence of a
mandate jurisdiction over a cause remains in the appellate court.
This Court has instructed that until an application for a
writ of habeas corpus has achieved final resolution through the
State's post-conviction procedures, by definition it remains
pending. See., Care v. Saffold, 122 S.Ct. 2134 (200$). The district
court fail to examine the particular State habeas procedure to
determine when the process has reached completion or final resolution.
See., Payne v. Kemna, 441 F.3d 570 (8th Cir. 2006), Nyland v.
Moore, 216 F.3d 1264 (11th Cir. 2000).
Thus, absent the issuance of mandate by the Texas Court of
Criminal Appeals, there has not been a final resolution and/or
completion of the proceedings, notwithstanding an adjudication
upon the merits of the claim. The district court did not reach
this matter, and clearly fail to correctly analyze and apply
the law correctly. Therefore, reasonable jurist would find the
assessment of the Petitioner's constitutional claim debatable
or wrong under Section 2254(d)(1) or (2).

It is clear, that

a question of the district court's jurisdiction is at issue.

111]
P

The Petitioner originally tendered the instant Petition seeking
the issuance of a certificate of appealability from a Circuit Justice
of the Court, however, the Clerk of the Court declined to file
the same and mandated the filing of the instant Petition, thus,
i

subverting and depriving the Petitioner of the right to seek
the issuance of a certificate of appealability from a Circuit
Justice upon the determination made by the district court. The
Petitioner enjoyed the right to seek the issuance of a certificate
of appealability from a Circuit Justice under Title 28 U.S.C.,
SSction 2253(c)(1)(2).
CONCLUSION

The petition for a writ of certiorari should be granted, or a certificate of
appealability be issued in this case.
o

Respectfully submitted,

Richard Demon Donaldson

Date: July 01/ J2021

14

